                                                                             Report No. DODIG-2014-078




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

               JUNE 5, 2014




                     Quality Control Review of
                     PricewaterhouseCoopers, LLP
                     FY 2012 Single Audit of Massachusetts
                     Institute of Technology




I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste, & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                         June 5, 2014

The Audit Committee of
Massachusetts Institute of Technology

Vice President of Finance
Massachusetts Institute of Technology

Managing Director
PricewaterhouseCoopers, LLP

Audit Partner
PricewaterhouseCoopers, LLP

SUBJECT: Quality Control Review of PricewaterhouseCoopers, LLP FY 2012 Single Audit of
	        Massachusetts Institute of Technology (Report No. DODIG-2014-078)

We are providing this report for your information and use. We considered management
comments on a draft of this report when preparing the final report. The management comments
were responsive; therefore, additional comments are not required.

As the cognizant Federal agency for the Massachusetts Institute of Technology, we performed a review
of the PricewaterhouseCoopers, LLP single audit and supporting working papers for the year ended
June 30, 2012. The purpose of our review was to determine whether the single audit was conducted
in accordance with auditing standards and the Office of Management and Budget Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations.”

We appreciate the courtesies extended to the audit staff. For additional information on this report,
please contact Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877).




	
	                                           Randolph R. Stone
	                                           Deputy Inspector General
	                                           Policy and Oversight




                                                                                    Report No. DODIG-2014-078│ i
                   Contents
                   Introduction
                   Objective__________________________________________________________________________________________1
                   Background ______________________________________________________________________________________1
                          Massachusetts Institute of Technology___________________________________________________1
                          PricewaterhouseCoopers, LLP____________________________________________________________1
                   Review Results __________________________________________________________________________________2
                   Management Comments and DoDIG Response________________________________________________2

                   Finding. Audit Documentation Needs Improvement_______3
                   Audit Sampling___________________________________________________________________________________3
                   Allowable Costs/Cost Principles________________________________________________________________4
                   Special Tests and Provisions____________________________________________________________________5
                   Subrecipient Monitoring and Reporting _______________________________________________________6
                   Recommendations, Management Comments, and Our Response____________________________6

                   Appendixes_______________________________________________________________________________8
                   Appendix A. Quality Control Review Process_ ________________________________________________8
                          Criteria, Scope, and Methodology_________________________________________________________8
                          Prior Quality Control Reviews____________________________________________________________9
                   Appendix B. Compliance Requirements_____________________________________________________ 10

                   Management Comments_____________________________________________________ 11
                   Acronyms and Abbreviations______________________________________________ 14




ii │ Report No. DODIG-2014-078
                                                                                                                                   Introduction




Introduction
Objective
As the cognizant Federal agency for the Massachusetts Institute of Technology (MIT),
we performed a review of the PricewaterhouseCoopers, LLP (PwC) single audit and
supporting working papers for the audit period of July 1, 2011, through June 30, 2012.
Our objective was to determine whether PwC conducted the single audit in accordance
with generally accepted government auditing standards, the American Institute of
Certified Public Accountants (AICPA) auditing standards, and the auditing and reporting
requirements of Office of Management and Budget (OMB) Circular A-133, “Audits of
States, Local Governments, and Non-Profit Organizations.” Appendix A contains additional
details on our criteria, scope, and methodology; and identifies prior quality control
reviews.         Appendix B lists the compliance requirements that PwC determined to be
applicable to the FY 2012 audit.


Background
Massachusetts Institute of Technology
MIT is a private educational institute located in Cambridge, Massachusetts. Its mission is
to advance knowledge and educate students in science, technology, and other areas of
scholarship that will best serve the nation and the world in the 21st century. MIT also
conducts research, primarily receiving funding from the Federal Government through
grants and contracts. In addition, MIT operates the Lincoln Laboratory, a federally funded
research and development center1 sponsored by the Department of Defense that uses
advanced technology to address problems of national security.

During FY 2012, MIT expended more than $1.4 billion in Federal funds. Of the $1.4 billion,
MIT expended $1.3 billion on one major program, the research and development cluster,
including $891 million expended on Department of Defense programs.


PricewaterhouseCoopers, LLP
PwC, a member firm of PricewaterhouseCoopers International Limited, provides a wide
array of business services. Their services include auditing, business and Government
consulting, and tax preparation and planning. PwC maintains its own system of internal


	1	
      A federally funded research and development center is an activity sponsored under a broad charter by a Government agency
      for the purpose of performing, analyzing, integrating, supporting, and managing basic or applied research and development,
      and that receives 70 percent or more of its financial support from the Government.




                                                                                                                    Report No. DODIG-2014-078 │ 1
Introduction




                  quality control over its accounting and auditing practices as required by the AICPA.
                  PwC’s office in Boston, Massachusetts, performed the MIT single audit for FY 2012.


                  Review Results
                  MIT complied with OMB Circular A-133 reporting requirements.             PwC generally
                  met auditing standards and Circular A-133 requirements, and no additional work is
                  required for the FY 2012 single audit. However, we identified deficiencies related to
                  the documentation of audit sampling, reliance on financial statement internal control
                  testing, and the review of the special tests and provisions, subrecipient monitoring, and
                  reporting compliance requirements that need to be addressed for future audits.


                  Management Comments and DoDIG Response
                  PwC agreed to take recommended actions. Management comments were responsive
                  and no additional comments are needed. Management comments are included in
                  their entirety at the end of the report.




2 │ Report No. DODIG-2014-078
                                                                                                                                      Finding




Finding
Audit Documentation Needs Improvement
PwC did not adequately document its audit sampling used for testing internal controls
and compliance with requirements determined to be direct and material for the research
and development cluster. In addition, PwC’s documentation of the Federal program audit
did not always provide a clear description of audit procedures performed and evidence
obtained to support its conclusions on the allowable costs/cost principles, special tests
and provisions, subrecipient monitoring, and reporting compliance requirements. As
a result, the PwC auditors were required to provide additional verbal explanations
and documentation for us to conclude there was sufficient evidence to support audit
conclusions on the research and development cluster.

Auditing standards require that audit documentation be appropriately detailed to provide
a clear understanding of the work performed, the evidence obtained, and the conclusions
reached. The documentation and audit evidence should be in sufficient detail to enable an
experienced auditor with no previous connections to the audit to understand the nature,
timing, extent, and results of audit procedures performed that support the significant
judgments and conclusions. In addition, audit documentation should be appropriately
organized to provide a clear link to the findings, conclusions, and recommendations.



Audit Sampling
PwC did not adequately document the audit sampling used to test internal controls and
compliance with requirements determined to be direct and material for the research
and development cluster. The working papers did not include a description of the
sampled population or the basis used to determine the sample sizes necessary for the
testing of internal controls and compliance. This information is necessary to provide
a clear understanding of the audit procedures performed, and ensure that, those audit
procedures are sufficient to support the significant judgments and conclusions on the
research and development cluster.

The AICPA Audit Guide, “Government Auditing Standards and Circular A-133 Audits”
(the Audit Guide)2 contains guidance on sampling. The Audit Guide states that auditors


	2	
      The AICPA Audit Guide is an interpretative publication issued under the authority of the Auditing Standards Board. The
      members of the Auditing Standards Board have found this auditing guidance to be consistent with existing generally
      accepted auditing standards.




                                                                                                                   Report No. DODIG-2014-078 │ 3
Finding



                  should (1) determine that the sampling unit and population are appropriate for the
                  audit objectives, (2) verify the completeness of the population being tested, and
                  (3) select a sample that is representative of the population. The Audit Guide also
                  provides sampling considerations for auditors including the significance of the internal
                  controls, inherent risk factors of the compliance requirement, and the desired level of
                  assurance3 they expect to obtain from the compliance test for each direct and material
                  compliance requirement.                   Although the working papers for planning and testing
                  contained the resulting sample sizes, PwC did not include documentation on the
                  population being tested and its evaluation of the criteria that would allow a reviewer
                  to assess the adequacy of the sample sizes selected.

                  In response to our inquiries, PwC provided additional documentation and verbal
                  explanations including a comprehensive evaluation of the criteria used to determine
                  that the sample size selection process was appropriate. However, the documentation
                  PwC provided was not included or referenced in the audit working papers. In the future,
                  PwC should include or reference this documentation in the audit working papers.


                  Allowable Costs/Cost Principles
                  PwC did not adequately document in the working papers its reliance on the audit
                  procedures performed in the financial statement audit to support conclusions on the
                  allowable costs/cost principles compliance requirement in the audit of the research
                  and development cluster. The working papers documented that the auditors relied
                  on the payroll system internal control testing performed in the financial statement
                  audit to conclude that payroll costs were properly reviewed and approved for the
                  research and development cluster. However, the working papers did not provide a
                  clear understanding of the specific audit procedures performed during the financial
                  statement audit that supported the conclusions on the allowable costs/cost principles
                  compliance requirement. We also noted that the planned sample sizes identified for
                  testing the research and development cluster were different than the sample sizes
                  tested in the financial statement audit. In addition, the items selected for testing
                  during the financial statement audit included items not related to the research and
                  development cluster.                Therefore, it was not clear from the documentation in the
                  working papers whether there was sufficient evidence to support conclusions on MIT’s
                  compliance with the allowable costs/cost principles requirement.




                  	3	
                        Desired level of assurance depends on the risk of material noncompliance remaining after considering other audit
                        procedures, such as risk assessment, internal control testing, and substantive analytical procedures.




4 │ Report No. DODIG-2014-078
                                                                                                  Finding



We had to obtain additional documentation and verbal explanations in order to
conclude that the audit procedures performed were sufficient for the testing of internal
controls and compliance with the allowable costs/cost principles requirement. Based
on the additional information provided, we accept that there was sufficient evidence
to support PwC’s conclusions; however, for future audits, PwC should enhance
documentation supporting its reliance on the testing performed in the financial
statement audit. This should include documenting how the populations tested in the
financial statement audit are relevant to the Federal program being tested.


Special Tests and Provisions
PwC adequately obtained an understanding of internal controls to ensure compliance
with special tests and provisions for the research and development program and
properly identified the key personnel requirement as a special provision to be tested.
However, PwC did not adequately document the audit procedures performed to test
internal controls and compliance with key personnel requirements.

The auditors documented that they relied on the direct cost testing performed for
payroll costs to determine compliance with key personnel requirements. However,
we noted that the direct cost testing was on a population that included all personnel
related to the grants selected, not just key personnel. This population was not adequate
to test whether key personnel were working on the grants because the sampled items
being randomly selected would not necessarily include any key personnel. Instead, the
auditors should have selected a sample from a population that was appropriate for the
specific audit objectives of the requirement being tested. Based on our discussions with
the auditors and additional information from other audit procedures performed, we
determined that the auditors’ conclusions on key personnel were supported.

We identified documentation deficiencies in prior quality control reviews of PwC’s
audit work for the testing of key personnel requirements. See Appendix A for further
information on prior quality control reviews. Because of the deficiencies in this report
and prior quality control reviews, we believe PwC should provide additional guidance
or modify procedures to ensure PwC auditors understand how to properly perform
and document the review of key personnel requirements in future audits.




                                                                               Report No. DODIG-2014-078 │ 5
Finding



                  Subrecipient Monitoring and Reporting
                  PwC needs to improve the audit documentation relating to its review of the
                  subrecipient monitoring and reporting compliance requirements. The objectives of
                  the subrecipient monitoring compliance requirement include determining whether the
                  pass-through entity4 monitored subrecipient activities to provide reasonable assurance
                  that the subrecipient administers Federal awards in compliance with Federal
                  requirements. This includes determining whether the pass-through entity monitored
                  subrecipient activities during the award period and ensured that required subrecipient
                  audits were performed and reviewed. The working papers documented the review
                  of subrecipient audit reports but did not identify other evidence reviewed to support
                  that MIT was monitoring activities during the award period. For the reporting
                  compliance requirement, the auditors did not adequately document how the
                  internal control testing performed for one report type supported their conclusions
                  that internal controls were operating effectively for the two report types reviewed.
                  We had to obtain additional verbal explanations in order to conclude that the audit
                  procedures performed were sufficient for the testing of internal controls and
                  compliance with the subrecipient monitoring and reporting requirements.


                  Recommendations, Management Comments, and
                  Our Response
                  Recommendation 1
                  We recommend that for future audits, the Audit Partner PwC:

                                a.	 Document in its audit working papers a complete description of the
                                    population from which samples are selected. This includes how the auditor
                                    considered the completeness of the population.

                                b.	 Maintain, as part of its audit file, documentation to support the evaluation
                                    of criteria used to determine the appropriate sample sizes for internal
                                    control and compliance testing.

                                c.	 Document the rationale for relying on the financial statement audit testing
                                    to support conclusions on the allowable costs/cost principles compliance
                                    requirement including how the population tested in the financial
                                    statements audit is sufficient to support the audit of the major program.


                  	4	
                        A pass-through entity is a non-Federal entity (a State, local Government, or non-profit organization) that provides a Federal
                        award to a subrecipient to carry out a Federal program.




6 │ Report No. DODIG-2014-078
                                                                                                    Finding



         d.	 Improve the performance and documentation of audit procedures to address
           the deficiencies identified in this report on the special tests and provisions,
           subrecipient monitoring, and reporting compliance requirements.

         e.	 Provide the Department of Defense Office of Inspector General with
           the working paper documentation from the FY 2014 single audit that
           demonstrates corrective action taken to address the deficiencies identified
           in this report.

PwC Comments
The Audit Partner, PwC, agreed to take the recommended actions. Management
comments are included in their entirety at the end of this report.


Our Response
PwC comments are responsive to our recommendation.             No additional comments
are needed.


Recommendation 2
We recommend that the Managing Director, PwC, provide additional guidance or
implement procedures to improve the performance and documentation for the
review of the key personnel requirement for all future PwC single audits.


PwC Comments
The Managing Director, PwC, agreed to take the recommended actions. Management
comments are included in their entirety at the end of this report.


Our Response
PwC comments are responsive to our recommendation.             No additional comments
are needed.




                                                                                 Report No. DODIG-2014-078 │ 7
Appendixes




                  Appendix A
                  Quality Control Review Process
                  Criteria, Scope, and Methodology
                  Public Law 98-502, “The Single Audit Act of 1984,” as amended, was enacted to promote
                  sound financial management of Federal awards administered by non-Federal entities
                  and to establish a uniform set of auditing and reporting requirements for all Federal
                  award recipients that are required to obtain a single audit.               OMB Circular A-133
                  establishes policies that guide the implementation of the Act and provides an
                  administrative foundation for uniform audit requirements of non-Federal entities
                  administering Federal awards. Entities that expend $500,000 or more in a year are
                  subject to the Act and OMB Circular A-133 requirements.                    Therefore, they must
                  have an annual single or program-specific audit performed in accordance with
                  government auditing standards and submit a complete reporting package to the
                  Federal Audit Clearinghouse.

                  We reviewed PwC’s FY 2012 single audit of MIT submitted to the Federal Audit
                  Clearinghouse on March 11, 2013, using the 2010 edition of the Council of Inspectors
                  General on Integrity and Efficiency (CIGIE), “Guide for Quality Control Reviews of
                  OMB Circular A-133 Audits.” The Guide is the approved CIGIE checklist for performing
                  quality control reviews of single audits. We performed the review from August 2013
                  through April 2014 in accordance with CIGIE Quality Standards for Inspection and
                  Evaluation. The review focused on the following qualitative aspects of the single audit:

                                •	 Qualification of Auditors,

                                •	 Independence,

                                •	 Due Professional Care,

                                •	 Planning and Supervision,

                                •	 Audit Follow-Up,

                                •	 Internal   Control   and     Compliance   Testing   for    the   Research   and
                                  Development Cluster,

                                •	 Schedule of Expenditures of Federal Awards, and

                                •	 Data Collection Form.




8 │ Report No. DODIG-2014-078
                                                                                                 Appendixes



Prior Quality Control Reviews
Since October 1, 2008, we performed three quality control reviews of PwC’s
OMB Circular A-133 audits. Two reviews contained deficiencies resulting in findings
and     recommendations    relating   to   PwC’s    audit   performance      and   working
paper    documentation.    Unrestricted    DoD     IG   reports   can   be    accessed     at
http://www.dodig.mil/audit/reports.

          •	 DODIG Report No. DODIG-2013-125, “Quality Control Review of the
            PricewaterhouseCoopers, LLP FY 2011 Single Audit of SRI International,”
            August 29, 2013.

          •	 DODIG Report No. DODIG-2013-048, “Quality Control Review of the
            PricewaterhouseCoopers, LLP and the Defense Contract Audit Agency
            FY 2010 Single Audit of the Institute for Defense Analyses,” February 20, 2013

          •	 DODIG Report No. D-2011-6-004, “Report on Quality Control Review of
            the PricewaterhouseCoopers, LLP and the Defense Contract Audit Agency
            FY 2008 Single Audit of the Charles Stark Draper Laboratory,
            Incorporated,” February 28, 2011




                                                                                   Report No. DODIG-2014-078 │ 9
Appendixes




                  Appendix B
                  Compliance Requirements
                  Table B. PwC’s Determination of the Compliance Requirements Applicable to the Research
                  and Development Cluster
                                                                                        Not Applicable/
                      OMB Circular A-133 Compliance Requirements          Applicable     Not Material
                    Activities Allowed/Unallowed                              X
                    Allowable Cost/Cost Principles                            X
                    Cash Management                                           X
                    Davis Bacon Act                                           X
                    Eligibility                                                               X
                    Equipment and Real Property Management                    X
                    Matching, Level of Effort, Earmarking                     X
                    Period of Availability of Federal funds                   X
                    Procurement, Suspension, and Debarment                    X
                    Program Income                                                            X
                    Real Property Acquisition and Relocation Assistance                       X
                    Reporting                                                 X
                    Subrecipient Monitoring                                   X
                    Special Tests and Provisions                              X




10 │ Report No. DODIG-2014-078
                              Management Comments




Management Comments
PricewaterhouseCoopers, LLP




                              Report No. DODIG-2014-078│ 11
Management Comments




                  Management Comments
                  PricewaterhouseCoopers, LLP (cont’d)




12 │ Report No. DODIG-2014-078
                                       Management Comments




Management Comments
PricewaterhouseCoopers, LLP (cont’d)




                                       Report No. DODIG-2014-078│ 13
Acronyms and Abbreviations




                  Acronyms and Abbreviations
                     AICPA American Institute of Certified Public Accountants
                     CIGIE Council of Inspectors General on Integrity and Efficiency
                       MIT Massachusetts Institute of Technology
                      OMB Office of Management and Budget
                      PwC PricewaterhouseCoopers, LLP




14 │ Report No. DODIG-2014-078
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D epartme n t of D efe n se │ I n spector G e n eral
                 4800 Mark Center Drive
               Alexandria, VA 22350-1500
                     www.dodig.mil
             Defense Hotline 1.800.424.9098
